           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION

       INDIVIDUALS RECEIVING
   MULTIPLE OLD-AGE, SURVIVORS
 AND DISABILITY INSURANCE BENEFITS

    September 2009   A-01-08-28048




 AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                            SOCIAL SECURITY
MEMORANDUM

Date:   September 17, 2009                                                      Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Individuals Receiving Multiple Old-Age, Survivors and Disability Insurance Benefits
        (A-01-08-28048)


        OBJECTIVE

        Our objective was to quantify overpayments to individuals receiving multiple Old-Age,
        Survivors and Disability Insurance benefits.

        BACKGROUND
        The Social Security Administration (SSA) administers the Old-Age, Survivors and
        Disability Insurance program under Title II of the Social Security Act. 1 The program
        provides monthly benefits to retired or disabled workers and their families and to
        survivors of deceased workers.

        In our August 2006 audit, Benefits Paid to Dually Entitled Title II Beneficiaries
        (A-01-06-26004), we estimated SSA incorrectly paid about $23 million to approximately
        1,400 beneficiaries because it incorrectly calculated payment amounts due. The results
        of that audit led us to conduct this review.

        DUAL ENTITLEMENT

        Dual entitlement exists when a beneficiary is entitled to more than one benefit at the
        same time. For example, a beneficiary may be entitled to retirement benefits on his or
        her own earnings record and to spouse’s benefits on another person’s earnings record.
        Although a beneficiary may be simultaneously entitled to more than one benefit, the
        total benefit may not be greater than the highest single benefit amount to which he or
        she is entitled. Generally, SSA calculates the amounts due and combines the benefits




        1
            Social Security Act § 201 et seq., 42 U.S.C. § 401 et seq.
Page 2 - The Commissioner


into one monthly payment. 2 In December 2007, about 6.6 million retired or disabled
workers were entitled to receive benefits on multiple records. 3

METHODOLOGY

To accomplish our objective, we identified a population of 13,625 beneficiaries whose
benefit payments appeared to exceed the maximum amount they were entitled to
receive. Our 2006 review identified overpaid dually entitled beneficiaries using
dual-entitlement information on the beneficiaries' records. To identify the population for
this review, we compared the amount dually entitled beneficiaries were actually paid to
the highest single benefit amount they were entitled to receive.

We randomly selected 275 records from this group for detailed analysis and requested
the assistance of SSA’s Office of Operations to review the payment amounts and take
corrective action as needed. (See Appendix A for our Scope, Methodology, and
Sample Results.)

RESULTS OF REVIEW

Generally, we found SSA did not pay our population of dually entitled beneficiaries more
than they were entitled to receive. However, based on the results of our sample, we
estimate that SSA incorrectly calculated benefits paid to about 446 beneficiaries. We
estimate the total effect of these calculation errors is about $2.2 million, including about
$1.6 million in benefits SSA already paid and about $574,000 in future benefit payments
over the next 12 months. 4

SAMPLE RESULTS

We randomly selected 275 records for detailed analysis and found:
       9 cases were overpaid;
       13 cases had been overpaid but were detected and addressed by SSA; and




2
 SSA, Program Operations Manual System, GN 02401.025. Generally, benefits are combined into one
monthly payment unless they are derived from different Trust Funds.
3
 This includes 6.4 million retired workers and 249,677 disabled workers who were dually entitled. See
SSA Annual Statistical Supplement, 2008 (Table 5.G1), March 2009, and Annual Statistical Report on the
Social Security Disability Insurance Program, 2007 (Table 25), September 2008.
4
 The sample results showed multiple cases with low dollar amounts and multiple cases with high dollar
amounts; see Appendix A for more information.
Page 3 - The Commissioner


         253 cases were not overpaid. However, some of the cases were not properly
          coded in SSA’s systems as having delayed retirement credits. 5 SSA staff
          reviewed 50 of our sample cases and determined that at least 20 lacked the
          proper delayed retirement credit coding on the benefit record. 6 While the lack of
          coding did not impact the payment amounts, proper coding of the beneficiary’s
          record is needed to show that benefits are being paid properly.

Dual-Entitlement Payments Corrected Based on Audit

In total, nine beneficiaries in our sample (3 percent) were incorrectly paid $32,960.
Additionally, we estimate SSA would have paid about $11,580 to these beneficiaries
                                                         over the next 12 months if the
                                                         payment errors were not
                   Sample Results                        corrected.

                                                      For example, one beneficiary
                                                      was dually entitled to both a
                                          SSA         retirement benefit and a widow's
                                        Detected      benefit beginning in
                                          5%          November 2005. Although the
     Not                                              two benefits were combined and
  Overpaid                                            issued as one monthly payment,
     92%                                              the benefit amount exceeded the
                                        Overpaid      amount to which the beneficiary
                                           3%         was entitled. As a result, the
                                                      beneficiary was overpaid
                                                      $7,516 through March 2009. We
                                                      referred this case to SSA to
correct the benefit payment. If the overpayment continued, the beneficiary would be
overpaid about $2,200 over the next 12 months.

CONCLUSION AND RECOMMENDATIONS

We found some beneficiaries in our population were not entitled to all the benefits paid
to them. Based on our sample results, we estimated that SSA paid 446 beneficiaries
approximately $1.6 million more in benefits than they were due. Unless SSA corrects
these overpayments, about $574,000 in benefits not due will be paid over the next
12 months.




5
  Delayed retirement credits increase the benefit amount for the months that a beneficiary does not
receive a benefit payment between full retirement age and age 70.
6
    We sent 50 of our 275 sample cases to SSA for analysis and corrective action.
Page 4 - The Commissioner


We recommend that SSA:

1. Review the cases in our population most likely to have overpayments to determine
   whether the proper benefit amounts are being paid.

2. Remind technicians to update benefit records as appropriate to support the benefit
   payment amounts.

AGENCY COMMENTS

SSA agreed with the recommendations (see Appendix B).



                                               S
                                               Patrick P. O’Carroll, Jr.
                                   Appendices
APPENDIX A – Scope, Methodology, and Sample Results

APPENDIX B – Agency Comments

APPENDIX C – OIG Contacts and Staff Acknowledgments
                                                                          Appendix A

Scope, Methodology, and Sample Results
To accomplish our objective, we

   researched the Social Security Act and the Social Security Administration’s (SSA)
    regulations, policies, and procedures related to dual entitlement;

   obtained from SSA a file of 6.4 million Title II dual entitlement benefit records that
    were in pay status as of March 2008;

   identified a population of 13,625 beneficiaries who appeared to be receiving more
    than the highest single benefit amount to which they were entitled;

   selected a random sample of 275 records from the population for detailed analysis;

   analyzed the file and identified 50 beneficiaries who appeared to be receiving more
    than the highest single benefit amount to which they were entitled and for which SSA
    could take necessary corrective action under its application of the rules of
    administrative finality; and

   referred the sample cases to SSA’s Office of Operations for review and corrective
    action.

We conducted our review between March and June 2009 in Boston, Massachusetts.
We determined the data used for this audit were sufficiently reliable to meet our audit
objective. The principal entities audited were SSA field offices and program service
centers under the Deputy Commissioner for Operations. We conducted this
performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objectives.




                                             A-1
SAMPLE RESULTS AND PROJECTIONS

    Table A-1: Population and sample size
    Population Size                                                                         13,625
    Sample Size                                                                                275


                                                                       Number of
    Table A-2: Cases with overpayments                                                      Dollars
                                                                      Beneficiaries
    Identified in Sample 1                                                        9           $32,960
    Point Estimate                                                             446        $1,633,018
    Projection Lower Limit                                                     236          $242,513
    Projection Upper Limit                                                     765        $3,023,524
    Note: All projections are at the 90-percent confidence level.


    Table A-3: Funds SSA would avoid paying over the next              Number of
                                                                                            Dollars
    12 months if the erroneous payments are corrected                 Beneficiaries
    Identified in Sample 2                                                        8           $11,580
    Point Estimate                                                             396          $573,732
    Projection Lower Limit                                                     200          $109,524
    Projection Upper Limit                                                     703        $1,037,952
    Note: All projections are at the 90-percent confidence level.




1
 The sample results of overpaid cases showed multiple cases with low dollar amounts and multiple
cases with high dollar amounts. Specifically, the overpayments for the nine cases were $1; $4; $4; $39;
$1,060; $2,761; $7,516; $10,695; and $10,880.
2
  The sample results of cases with ongoing monthly overpayments showed multiple cases with low dollar
amounts and multiple cases with high dollar amounts. Specifically, the ongoing monthly overpayments
for the eight cases were $1; $1; $1; $87; $101; $185; $242; and $347.




                                                      A-2
                  Appendix B

Agency Comments
                                          SOCIAL SECURITY

MEMORANDUM


Date:      September 8, 2009                                                       Refer To: S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Margaret J. Tittel /s/
           Acting Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, "Individuals Receiving Multiple Old-Age,
           Survivors, and Disability Insurance Benefits" (A-01-08-28048)--INFORMATION


           Thank you for the opportunity to review and comment on the draft report. We appreciate OIG’s
           efforts in conducting this review. Attached is our response to the report findings and
           recommendations.

           Please let me know if we can be of further assistance. Please direct staff inquiries to
           Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.

           Attachment:
           SSA Response




                                                          B-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, "INDIVIDUALS RECEIVING MULTIPLE OLD-AGE, SURVIVORS, AND
DISABILITY INSURANCE BENEFITS" A-01-08-28048


Recommendation 1

Review the cases in our population most likely to have overpayments to determine whether the
proper benefit amounts are being paid.

Response

We agree. By January 15, 2010, we will review the cases most likely to have overpayments and
determine whether we are paying the proper benefit amounts.

Recommendation 2

Remind technicians to update benefit records as appropriate to support the benefit payment
amounts.

Response

We agree. By November 2009, we will issue an administrative message, reminding staff to
update benefit records as appropriate to support the benefit payment amounts.




                                              B-2
                                                                     Appendix C

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Judith Oliveira, Director, Boston Audit Division

   David Mazzola, Audit Manager

Acknowledgments

In addition to those named above:

   Kevin Joyce, IT Specialist

   David York, Program Analyst

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-01-08-28048.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
